Fie
I

OCKLE

2311 Douglas Street No : E-Mail Address:
Omaha, Nebraska 68102-1214 Lega 1B nue En contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-244

JAMES MICHAEL FAYED,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF IN SUPPORT
OF PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 2962 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 11th day of December, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State af Nebraska ve CLL
RENEE J. GOSS 9. ¢ pa *
Notary Public

‘My Comm. Exp. September 5, 2023

 

Affiant 40283
